              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Dual Axis Radiographic
Hydrodynamic Test Facility




DOE/IG-0599                                 May 2003
DUAL AXIS RADIOGRAPHIC HYDRODYNAMIC TEST FACILITY

TABLE OF
CONTENTS



                Schedule, Cost, and Technical Scope

                Details of Finding ....................................................................... 1

                Recommendations and Comments ........................................... 5


                Appendices

                1. Objective, Scope, and Methodology ...................................... 7

                2. Prior Audit Reports ................................................................. 9
SCHEDULE, COST, AND TECHNICAL SCOPE

Background       The Dual Axis Radiographic Hydrodynamic Test (DARHT) facility is
                 an experimental facility of the Stockpile Stewardship Program. The
                 facility will provide high-speed, high-resolution flash radiographs to
                 diagnose the results of hydrodynamic tests and dynamic experiments.
                 Construction of DARHT began in 1988. Since that time, the project
                 has undergone several baseline changes impacting different technical
                 aspects of the project. Original plans called for the development of two
                 single-pulse axes with similar capabilities at a cost of $30 million. In
                 1998, the scope was changed to expand the capability of the second axis
                 while at the same time increasing the cost to $270 million. The
                 following photograph shows DARHT's main facility, the Hydrotest
                 Firing Site, under construction.




                 Although Los Alamos announced that the construction was completed
                 in March 2003, the project will not be fully operational until
                 commissioning activities are completed for the second axis.
                 Commissioning activities are designed to achieve the full potential of
                 the accelerator through gradual performance increases over time.



Page 1                                                               Details of Finding
                     Los Alamos' May 2000 Project Execution Plan defines specific project
                     requirements and outlines the schedule, cost, and technical scope. It
                     also describes the division of the project into two phases. Phase 1
                     included construction of the Hydrotest Firing Site, the Radiographic
                     Support Laboratory, acquisition of the single-pulse x-ray machine for
                     the first axis, and equipment for the first stage of emissions
                     containment. Phase 2 included the construction of the vessel
                     preparation facility and acquisition of the four-pulse x-ray machine for
                     the second axis as well as equipment for the second stage of emissions
                     containment.

Project Management   The audit disclosed that the DARHT facility would not be fully
Milestones           operational until June 2004 – 15 months later than its projected
                     completion date of March 2003. In addition, scope changes — which
                     reduced or eliminated work elements and transferred critical activities
                     to other projects — have been made, giving the appearance that the
                     total project cost is within the planned budget.

                                                Schedule Changes

                     According to earlier planning documents, both phases of the DARHT
                     project were to be completed by September 2002. Understandably, the
                     Cerro Grande Fire of 2001 created some delay in DARHT's plans and a
                     revised operational date of March 2003 was established. However, new
                     estimates, in August 2001, changed the completion criteria and further
                     delayed the operational date. This change eliminated the
                     commissioning and confinement vessel work elements from the project
                     and extended the fully operational date to June 2004.

                                                  Project Scope

                     Initially, the completion of the project was to include all activities
                     leading up to a "fully operational" DARHT facility. However, since the
                     last congressional budget request was developed, critical work elements
                     have been shifted to other programs or have been removed from the
                     scope.

                     For example, in August 2001, NNSA approved a baseline change that
                     removed the development of the confinement vessel system entirely
                     from the DARHT project scope. Of the original $11.9 million in capital
                     funds for confinement activities, Los Alamos had already expended
                     $2.0 million. The remaining $9.9 million was reprogrammed to other
                     work elements within the DARHT project. Because the confinement


Page 2                                                                   Details of Finding
         vessel system is still necessary for DARHT to operate at its full
         capability, Los Alamos has committed to expending about $27.6
         million in non-project operating funds to complete it. Using operating
         funds for work that was originally capital funded is not consistent with
         guidance in the Department's Accounting Handbook.

         In August 2001, the Department also approved a baseline change to
         remove commissioning for the second axis from the project scope.
         Originally, commissioning activities were included in DARHT's total
         project costs, similar to the funding methodology used for the
         commissioning of the first axis. However, Los Alamos is now
         completing commissioning activities using non-project operating funds
         from the Advanced Radiography Program. The latest estimate shows
         that Los Alamos will need at least $29.2 million above and beyond the
         original project cost to commission the second axis. Commissioning
         activities need to be completed before DARHT can operate to its full
         capability.

         Los Alamos also used $325,000 of non-project funds to assemble five
         spare accelerator cells and planned to spend another $325,000 to
         assemble five more. These shifts in critical work elements results in a
         total of at least $57.5 million in non-project fund spending.

         In addition to transferring the confinement vessels and commissioning
         from the DARHT project, NNSA and Los Alamos made the following
         scope adjustments:

            •   The size and emission capacity of vessels used to contain
                detonations during actual use of DARHT were reduced by
                approximately 50 percent and the $10 million "saved" by this
                action was transferred to other project elements;

            •   The size of the Vessel Preparation Facility was reduced to less
                than a quarter of its original size and, similar to the above
                scenario, the $7.5 million "saved" was transferred to another
                project element; and,

            •   Work to develop Photocathode Technology was discontinued.
                Again, money ($686,000) was redirected elsewhere within the
                DARHT project.




Page 3                                                        Details of Finding
Project Management        NNSA and Los Alamos officials did not make full use of available
Controls                  project management tools. Specifically, the cost of various work
                          elements within the DARHT project was significantly underestimated.
                          For example, Los Alamos officials budgeted less than $1 million for
                          the commissioning of the second axis – the same as was budgeted for
                          the first – even though the technology needed to complete this phase
                          was much more complex. As stated previously, the commissioning of
                          the second axis is now estimated to cost $29.2 million.

                          Los Alamos' estimate for contingency also was understated. According
                          to NNSA guidance, contingency for special facilities for a first time,
                          one-of-a-kind construction project such as DARHT, should be about
                          20–30 percent of the total estimated cost. However, Los Alamos
                          allocated only 15 percent of the total estimated cost for Phase 1
                          contingency and 11 percent for Phase 2 contingency. This
                          underestimation of costs adversely affected Los Alamos' ability to
                          complete the project within budget.

                          NNSA directed Los Alamos to complete work on the more complicated
                          second axis for $155 million, bringing the total project cost to $270
                          million. According to a project official, the $155 million was
                          inadequate but they chose not to request additional funds or go through
                          a formal reprogramming process because they believed that either
                          action could delay or even shut down the project. Instead, officials
                          sought to acquire the needed funding by reducing the scope of selective
                          work elements within the DARHT project and shifting other work
                          elements outside of the project to other programs.

Completion of the DARHT   According to revised project estimates, the critical capabilities that will
Facility                  be provided by the DARHT facility will be delayed by at least 15
                          months, potentially impeding the performance of the Stockpile
                          Stewardship Program. In addition, $57.5 million in costs, associated
                          with work elements transferred outside of the project, are being
                          absorbed by other Los Alamos programs and are not reflected in
                          DARHT's total project cost. Although project officials believe that the
                          facility will still provide the basic testing requirements, the scope
                          reductions eliminated the flexibility to perform some tests. Further, the
                          funds associated with the scope reductions were applied to other
                          elements of the project rather than reducing total project cost.




Page 4                                                                          Details of Finding
                      The lack of a viable baseline may cause serious concern in the future
                      because NNSA is already conducting research on the next generation
                      hydrodynamic test facility. Even though little is known about the future
                      technology, the lack of accurate technical scope, schedule, and cost
                      estimating at DARHT could adversely affect future hydrodynamic test
                      facilities and other Los Alamos line-item projects.


RECOMMENDATIONS       We recommend that the Administrator, NNSA:

                      1. Require Los Alamos to adjust the DARHT baseline to accurately
                         reflect the total cost of bringing DARHT to full operations
                         capability.

                      2. Ensure that guidance for estimating the cost of state-of-the-art, one-
                         of-a-kind projects is followed, particularly as it pertains to
                         contingency fund levels.

                      3. Ensure that guidelines for requesting additional funds or
                         reprogramming funds are implemented.

                      4. Direct the Director, Office of Field Financial Management, to make
                         a determination regarding the appropriateness of using non-project
                         operating funds to complete the confinement and commissioning
                         activities.


MANAGEMENT REACTION   In general, NNSA acknowledged the validity of the findings and
                      recommendations. Management concurred with recommendations two
                      and three; however, with respect to recommendations one and four,
                      management stated that it could not implement corrective actions
                      because the project was in close out.

                      Management also stated that there were events that made it difficult for
                      DARHT to meet cost, scope, and established milestone dates.
                      Therefore, decisions were made to deviate from established procedures.
                      With the establishment of NNSA in 2000 and with the changes in
                      management roles and responsibilities announced in 2002, many of the
                      problems identified are being corrected. Specifically, there are several




Page 5                                                 Recommendations and Comments
                   processes within the NNSA structure that provide the type of guidance
                   called for in recommendation two. In addition, the new DOE Order
                   provides the guidance for extensive reviews of the cost, contingency,
                   risk reduction and acquisition strategy.


AUDITOR COMMENTS   The actions taken by management to complete the project gave the
                   appearance that the project was completed within schedule, cost, and
                   technical scope. Although that was not the case, if management follows
                   the guidance referred to in their comments, similar problems could be
                   avoided in the future.




Page 6                                             Recommendations and Comments
Appendix 1

OBJECTIVE     The audit was conducted to determine whether the DARHT project was
              within schedule, cost, and technical scope.


SCOPE         The audit was performed from March 2002 to January 2003 at NNSA
              Headquarters in Washington, D.C. and Los Alamos National
              Laboratory in Los Alamos, New Mexico. The scope of the audit
              included activities of the DARHT facility from October 1987 through
              October 2002.


METHODOLOGY   To accomplish the audit objective, we:

              •   Identified the DARHT Project's technical scope, cost, and schedule;

              •   Evaluated the status of the scope, cost, and schedule;

              •   Reviewed Federal and NNSA regulations governing project
                  management;

              •   Examined DARHT Project documentation, including the Project
                  Execution Plan;

              •   Reviewed baseline changes;

              •   Analyzed the use of the contingency fund; and,

              •   Discussed DARHT Project activities with NNSA and contractor
                  personnel.

              We conducted the audit in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              audit included reviews of Site Office and DARHT Project Office
              project management activities. Because our review was limited, it
              would not necessarily have disclosed all internal control deficiencies
              that may have existed at the time of our audit. We did not conduct a
              reliability assessment of computer-processed data because only a very
              limited amount of computer-processed data was used during the audit.
              As part of our review, we evaluated the Site Office's expectations and
              performance measures for the DARHT Project. We determined that the


Page 7                                         Objective, Scope, and Methodology
Appendix 1 (continued)

                     Site Office established performance measures for the DARHT Project
                     in accordance with the Government Performance and Results Act of
                     1993.

                     We held an exit conference with NNSA Headquarters on May 1, 2003.




Page 8                                             Objective, Scope, and Methodology
Appendix 2

                                            PRIOR REPORTS


OFFICE OF INSPECTOR GENERAL REPORTS


This review concerned the progress of the DARHT Project regarding scope, budget, and schedule. Prior
Office of Inspector General reviews related to other large-scale projects include those listed below:

   •   The Department of Energy's Tritium Extraction Facility (DOE/IG-0560, June 2002). Completing
       the project within cost, schedule, and scope was at risk because the project team had not made full
       use of available project management controls. Concerns were raised that the facility would cost
       substantially more than the estimated total project cost and that the facility would not be completed
       on time. Also, the facility may not contain all elements of the original specifications. This is one
       report in a series of reports by the OIG critical of the planning, justification, and management of
       major projects by the Department and NNSA.

   •   Relativistic Heavy Ion Collider (RHIC) Project (DOE/IG-0543, March 2002). The project did not
       fully meet performance and cost expectations when it was designated as an operating facility.
       Specifically, expected beam collisions were not achieved and the project's budget was exceeded.
       Project expectations were not fully achieved because the NNSA did not adhere to project plans that
       called for beam collisions to be achieved before project completion and did not ensure that all costs
       specifically incurred for the project were included in total project costs.

   •   Progress of the Spallation Neutron Source (SNS) Project (DOE/IG-0532, November 2001). The
       SNS Project's technical scope was reduced to allow the cost and schedule components to be met.
       Specifically, the baseline did not provide for instruments to address the initially planned areas of
       science, complete user facilities, and critical spare parts. The condition existed because the NNSA
       decided to meet approved budget rather than ask Congress for additional funding.

   •   The Need for the Atlas Pulsed Power Experimental Facility (DOE/IG-0495, February 2001).
       Defense Programs determined that Atlas was needed to support its Stockpile Stewardship Program;
       however, as construction neared completion, Defense Programs stated it did not have the funds to
       operate the facility. Without operating funds, the NNSA will not be able to reap the benefits of the
       technology that this facility provides - validation of certain elements of nuclear weapons computer
       codes used to certify the safety, security, and reliability of the weapons stockpile.




Page 9                                                                                 Prior Audit Reports
                                                                              IG Report No.: DOE-IG-0599

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
